        Middlesex Community College
              591 Springs Road
        Bedford, Massachusetts 01730


         National Science Foundation
        Award Number DUE- 9454642


               Financial Audit
                     of
             Financial Schedules
                    and
        Independent Auditors’ Reports



For the Period January 1, 1995 to June 30, 1999




                              Leon Snead & Company, P.C.
                              416 Hungerford Drive, Suite 400
                              Rockville, Maryland 20850
                       FOR OFFICIAL USE ONLY


                 REPORT RELEASE RESTRICTION
This report may not be released to anyone outside the National Science
Foundation without advance approval by the NSF Office of Inspector
General. The only exception is an agency involved in negotiating or
administering NSF awards. The information in this report should be
treated as confidential and may not be used for purposes other than
originally intended without prior concurrence from the NSF Office of
Inspector General.
                                             TABLE OF CONTENTS

                                                                                                                            Page

Executive Summary:

  Background ....................................................................................................................1
  Audit Objectives, Scope, and Methodology ...................................................................1
  Summary of Audit Results ..............................................................................................2
  Exit Conferences .............................................................................................................2

Audit Findings and Recommendations:

  Independent Auditors’ Report on Financial Schedules ...................................................4
  Independent Auditors’ Report on Compliance with Laws and Regulations
    and Internal Control Over Financial Reporting............................................................6

Financial Schedules and Supplemental Information:

  Schedule A - Schedule of Award Costs (Award No. DUE-9454642 )...........................8
  Schedule B - Summary Schedules of Award Audited and Audit Results
                  (Award No. DUE-9454642 ) .................................................................9
  Notes to the Financial Schedules ..................................................................................10
EXECUTIVE SUMMARY
2. MCC’s systems of internal controls are adequate to properly administer, account for, and
   monitor its NSF awards in compliance with NSF and Federal requirements.

Our audit was conducted in accordance with auditing standards generally accepted in the
United States of America, Government Auditing Standards (1994 Revision) issued by the
Comptroller General of the United States of America, and the National Science Foundation
Audit Guide (September 1996), as applicable. These standards and the National Science
Foundation Audit Guide require that we plan and perform the audit to obtain reasonable
assurance about whether the amounts claimed to the National Science Foundation as presented
in the Schedule of Award Costs (Schedule A), are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in
Schedule A. An audit also includes assessing the accounting principles used and significant
estimates made by MCC, as well as evaluating the overall financial schedule’s presentation.
We believe our audit provides a reasonable basis for our opinion.

We used non-statistical sampling to test the costs claimed by MCC to test for compliance with
Federal and NSF award requirements. Based on this sampling plan, questioned costs may have
been found had all expenditures been tested.

SUMMARY OF AUDIT RESULTS

An audit was performed on the costs claimed in financial reports submitted by MCC to NSF, as
well as on the cost sharing provided by MCC for the NSF award audited. These costs and the
results of our audit are shown in Schedule A and are summarized as follows:

                        Source of                         Claimed          Questioned
   Award No.             Funding           Budget           Costs             Costs
  DUE-9454642          NSF Funding       $1,132,394      $1,129,320         $       0
                       Cost Sharing         359,298         365,074                 0
                       Total Project     $1,491,692      $1,494,394         $       0

The costs claimed by MCC for the award expenditures were generally allowable, allocable, and
reasonable in accordance with the applicable Federal cost principles, and NSF award terms and
conditions. In addition, MCC’s systems of internal controls appear adequate to properly
administer, account for, and monitor its NSF awards in compliance with NSF and Federal
requirements.

EXIT CONFERENCES

An exit conference was held on January 11, 2002, at MCC’s office in Bedford, Massachusetts.
Preliminary findings and recommendations, as well as other observations, were discussed with
those attending.




                                          2
Representing MCC were:

           Name                       Title
           John Lyons                 Director of Grants
           Richard Dery               Director of Finance


Representing Leon Snead & Company, P.C. was:

           Name                       Title
           William A. van der Grift   Senior Auditor

A second exit conference was held on March 2, 2004 by telephone. The audit results were
discussed with those attending.

Representing MCC were:

           Name                       Title
           John Lyons                 Director of Grants
           Richard Dery               Director of Finance


Representing Leon Snead & Company, P.C. was:

           Name                       Title
           Leon Snead                 Partner




                                           3
Direct Costs:
 Salaries and Wages               $       XXXXX         $ XXXXXXX'   $ XXXXXX     $ XXXXXX
 Fringe Benefits                          XXXXXX          XXXXX          XXXXXX         XXXX
 Permanent Equipment                       XXXXX          XXXXX          XXXXX          XXXX             -
 Travel                                   XXXX            XXXXX          XXXXX          XXXXX-           -
 Participant Support                       XXXXX          XXXXX          XXXXX           XXXXX

Other Direct Costs:
 Material and Supplies                                                   XXXXXX
                                           XXXXX         XXXXX                         XXXXX
 Publication                              XXXXXX         XXXX            XXXXX         XXXXXX            -
 Consultants                              XXXXX          XXXXX           XXXXX         XXXXXX            -
 Subcontract                              XXXXX          XXXXXX          XXXXX         XXXXXX            -
 Other                                    XXXXX          XXXXX           XXXXX         XXXXXX            -

            Total Direct Costs        $ 1,086,998   $   1,086,64 8   $       -         $ 1,086,648   $   -

Indirect Costs                            45,936           42,672            -             42,672        -

                      Subtotal        $ 1,132,934   $   1,129,320    $       -         $ 1,129,320   $   -

Costs claimed to NSF in
excess of actual costs or
costs incurred in excess of
claimed costs to NSF
                                            -                 -              -                -          -

                          Total       $ 1,132,934   $   1,129,320    $       -         $ 1,129,320   $   -


Cost Sharing                      $      359,298    $     365,074    $       -     $      365,074    $   -
                                                                          Schedule B

                    Middlesex Community College
         Summary Schedules of Award Audited and Audit Results
                   January 1, 1995 to June 30, 1999

                          Summary of Award Audited

     Award Number                Award Period              Audit Period
      DUE-9454642             01/01/95 – 06/30/99       01/01/95 – 06/30/99


  Award         Type of
  Number        Award                       Award Description
DUE-9454642      Grant        The purpose of the award was to fund the
                              Advanced Biotechnology Education Project.
                              The project was to develop coordinated high
                              school and two-year college biotechnology
                              curricula. Supporting activities were to include
                              teacher and faculty trainings, industry mentor
                              education, program material development, job
                              shadowing, and the recruitment and retention of
                              underrepresented groups of students.

                  Summary of Questioned Costs by Award

NSF Award       Award          Claimed Costs      Claimed        Questioned
 Number         Budget                          Cost Sharing       Costs

DUE-9454642    $1,132,394       $1,129,320          $365,074          $0




                                 9
                             Middlesex Community College
                             Notes to the Financial Schedules
                          From January 1, 1995 to June 30, 1999

Note 1: Summary of Significant Accounting Policies

Accounting Basis

The accompanying financial schedule has been prepared in conformity with National Science
Foundation (NSF) instructions. The Schedule of Award Costs (Schedule A) has been prepared
from the reports submitted to NSF and information obtained from the accounting records
maintained for the award by MCC. The basis of accounting used in the preparation of these
reports differs from generally accepted accounting principles. The following information
summarizes these differences:

       A. Equity

       Under the terms of the award, all funds not expended according to the award agreement
       and budget at the end of the award period are to be returned to NSF. Therefore, the
       awardee does not maintain any equity in the award and any excess of cash received
       from NSF over final expenditures is due back to NSF.

       B. Equipment

       Equipment is charged to expense in the period during which it is purchased instead of
       being recognized as an asset and depreciated over its useful life. As a result, the
       expenses reflected in the Schedule of Award Costs (Schedule A) include the cost of
       equipment purchased during the period rather than a provision for depreciation.

       Except for awards with nonstandard terms and conditions, title to equipment under NSF
       awards vests in the recipient, for use in the project or program for which it was
       acquired, as long as it is needed. The recipient may not encumber the property without
       approval of the federal awarding agency, but may use the equipment for its other
       federally sponsored activities, when it is no longer needed for the original project.

       C. Inventory

       Minor materials and supplies are charged to expense during the period of purchase. As a
       result, no inventory is recognized for these items in the financial schedule.

The departure from generally accepted accounting principles allows NSF to properly monitor
and track actual expenditures incurred by the awardee. The departure does not constitute a
material weakness in internal controls.




                                          10
Note 2: Income Taxes

MCC is a private nonprofit corporation, incorporated under the laws of the Commonwealth of
Massachusetts. MCC is exempt from income taxes under the Internal Revenue Code. It is also
exempt from the Commonwealth of Massachusetts franchise or income tax.




                                         11
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL



                Internet
             www.oig.nsf.gov

             Email Hotline
               oig@nsf.gov

               Telephone
              703-292-7100

     Toll-Free Anonymous Hotline
             1-800-428-2189

                   Fax
              703-292-9158

                  Mail
        Office of Inspector General
        National Science Foundation
       4201 Wilson Blvd., Suite 1135
           Arlington, VA 22230




                 12
